                             TESTIMONY OF

                        MICHAEL G. CARROLL,

                    DEPUTY INSPECTOR GENERAL,

        U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                               BEFORE THE

            COMMISSION ON WARTIME CONTRACTING IN

                       IRAQ AND AFGHANISTAN



            “ENSURING CONTRACTOR ACCOUNTABILITY:
    PAST PERFORMANCE AND SUSPENSION AND DEBARMENTS”




                          FEBRUARY 28, 2011


      I am pleased to appear before you to testify on behalf of the Office of

Inspector General (OIG) for the U.S. Agency for International Development

(USAID) and to be joined by such distinguished panelists. Today, I would

like to share information on the progress of USAID’s suspension and
debarment efforts and discuss the current contractor accountability

environment.


                                           Past Problems


           As you may know, a year and half ago, in October 2009, we issued an

audit report of USAID’s suspension and debarment practices.1 At the time,

we observed a number of problems with Agency practices and decision-

making processes.

           We found that USAID had not considered the use of suspension and

debarment in many cases in which such action might have been warranted.

In fact, the Agency had only taken suspension or debarment actions in

response to indictments and convictions reported by our office. The Agency

did not take action in response to other kinds of cases, such as those

stemming from matters that had been declined for prosecution by U.S.

authorities, or those arising from referrals from contracting officers or other

Agency employees. In two instances, USAID did not take action to suspend

or debar firms even when the firms had acknowledged making significant

false and inflated claims for reimbursement.                        This limited approach to

suspensions and debarments led USAID to apply these sanctions in


1
    Audit of USAID’s Process for Suspension and Debarment, Report No. 9-000-10-001-P, October 1, 2009.

                                                   -2-
relatively few cases. During the period covered by our audit (fiscal years

2003–2007), USAID documented or reported suspension and debarment

actions in response to only nine investigative cases.

      Our audit found that even when USAID had pursued suspension and

disbarment actions, it did not always execute them properly. USAID did not

routinely abide by Federal guidelines on providing notice of its final

debarment decisions, entering suspension and debarment information into

the Federal database of excluded parties, or documenting the actions it took.

A key step in the process of effectively suspending or debarring an

organization from Government contracts and awards is listing the entity in

the Excluded Parties List System (EPLS)—the system for tracking entities

that have been debarred, suspended, proposed for debarment, declared

ineligible, or otherwise excluded or disqualified. Despite the acquisition

regulation requirement to post information about exclusion actions in EPLS

within 5 workdays, we found that USAID failed to meet this requirement in

six of nine cases. In one case, the Agency omitted four debarred entities

from EPLS. In another case, we had difficulty discerning what steps, if any,

the Agency had taken to implement a debarment decision because the

division   responsible   for   maintaining    debarment   records   had   no

documentation of the matter.


                                      -3-
      Finally, we found that USAID had not consistently used available

information on excluded firms during the contracting process.         Federal

agencies must perform EPLS checks at two points before awarding funds:

during the bidding process and during the award process. To determine

whether USAID had consulted EPLS as required, we reviewed a random

sample of Agency contracts.      We found that USAID generally lacked

documentation that it had checked EPLS during the bidding process, and

documentation of such checks during the award process was inconsistent.

USAID could not establish that it had performed required EPLS checks at

any point for 20 of the 54 contracts we examined.


                           Present Observations


      I am happy to report that USAID’s current suspension and debarment

posture stands in sharp contrast to its past efforts. Although we have not had

an opportunity to thoroughly reevaluate the Agency’s suspension and

debarment process since 2009, we have observed considerable progress in its

application of these tools.    Since our audit, USAID has established a

Compliance and Oversight of Partner Performance Division focused on

suspension   and   debarment     actions   in   response   to   one   of   our

recommendations.     Whereas in 2009 USAID had no staff exclusively


                                     -4-
dedicated to such efforts, the Agency is now building a division of eight

acquisition, assistance, and audit personnel supported by an attorney from

the Agency’s Office of the General Counsel to handle these matters and

other contractor accountability functions.

      Rather than waiting for OIG referrals, USAID has taken the initiative

to identify cases suitable for suspension or debarment consideration. In fact,

for the first time in recent history, USAID debarred an individual based on

information that did not originate from our office. In September 2010,

USAID responded to independent reports that an employee of a USAID

grantee pleaded guilty to stealing federal funds, and took action to debar this

individual.

      Provided dedicated Agency staff to work with on suspension and

debarment actions, OIG has been able to engage USAID earlier in the

investigative process.    Whereas in the past we generally waited for

investigations to be completed before referring matters to USAID’s

suspension and debarment official, absent limitations imposed by the

Department of Justice, we now share “real-time” case information that the

Agency needs to determine if suspension or debarment action is warranted.

This close collaboration has helped us develop a clearer understanding of the

information Agency officials need to make prudent decisions.


                                      -5-
      To keep up with the pace of exchange on these matters, we have also

increased the frequency with which we communicate. Early last year, we

initiated monthly meetings with suspension and debarment staff. Now, our

exchanges with them are routine and occur many times a week.

      This earlier and more intensive engagement between the OIG and

USAID staff has produced greater results. Accordingly, of the 37 USAID

suspensions and debarments currently in effect, more than three-quarters—

or 28 in total—are based on actions taken within the last year.

      While there has been a major uptick in the quantity of work that

USAID is doing in the suspension and debarment arena, the most notable

sign of progress over the last year relates to a single case. In December

2010, following months of consultation with our office, USAID took the

extraordinary step of suspending one of its largest funding recipients, the

Academy for Educational Development (AED). USAID’s suspension

decision underscored the seriousness of its commitment to responding to

mismanagement of U.S. Government funds and established that no

implementing partner was too large to escape accountability. Indeed, at the

time USAID took this extraordinary step, it had 65 active awards valued at

approximately $640 million with AED and work underway in countries like




                                      -6-
Afghanistan and Pakistan. And the implications were felt across the

Government, as AED’s portfolio extended to other federal agencies.

      As you might imagine given the ramifications, USAID did not make

this decision lightly. OIG opened the underlying investigation in the spring

of 2009 and began sharing information with the Agency’s suspension and

debarment staff last summer.      USAID determined to proceed with the

suspension after we presented it with evidence of serious corporate

misconduct, mismanagement, and a lack of internal controls that raised

grave concerns about the firm’s integrity.

      This significant step followed on another notable case in which a

major firm was held to account for its work with USAID. After years of

investigative work, OIG established that high-level Louis Berger Group

(LBG) employees had conspired to charge the U.S. Government falsely

inflated overhead costs. In November 2010, our work in unraveling the

complex accounting scheme behind this effort produced plea agreements

from LBG’s former Chief Financial Officer and Controller, and a

$69.3 million settlement with the company.

      This settlement and USAID’s new approach to suspension and

debarment have helped reset the accountability environment in foreign




                                     -7-
assistance. Individuals and organizations working with USAID now have

heightened awareness that they will be held accountable.

      OIG intends to capitalize on this new momentum by increasing our

engagement with those who come forward with information about possible

violations. We are intensifying outreach efforts and reinforcing

opportunities for fraud reporting. We have increased our permanent staff

presence in priority countries and are working closely with host government

investigators and prosecutors to secure convictions of local law breakers

affecting USAID programs. These efforts all serve to extend our reach and

enforce a culture of accountability.

      These measures would not be as successful as they have been had

USAID not expanded the use of its suspension and debarment authorities.

We applaud the Administrator for his determination to hold the Agency’s

“implementing partners to strict account, regardless of their size.” And we

are hopeful that in establishing a new suspension and debarment task force

with the Deputy Administrator as its lead, the Agency will ensure that

suspension and debarment considerations remain at the forefront of efforts to

promote accountability.

      This type of senior leadership engagement is needed because effective

suspension and debarment efforts require continuing vigilance. One case in


                                       -8-
particular illustrates this point. In December 2008, after months of

investigation and following the successful prosecution of its husband and

wife owners for conspiracy and fraud, USAID debarred U.S. Protection and

Investigations, LLC (USPI), a firm that provided security services to the

Agency in Afghanistan. In addition to debarring the Texas-based firm,

USAID also debarred the couple who owned it. Despite these measures, the

couple was later found to be associated with a new firm, SERVCOR, which

was performing work on other federally funded contracts. USAID promptly

took action to debar the company last December.

      Our recent efforts and those of the Agency have had the effect of

strengthening the integrity of USAID’s contractor base. However, much

work remains to be done. Despite our renewed emphasis on suspension and

debarment, we are still identifying new opportunities to use these tools and

refining our follow through on case referrals. The Agency can strengthen its

efforts to independently identify cases suitable to suspension or debarment.

It can also do more to ensure that past performance information is entered

into corresponding systems.

      Proper stewardship of U.S. taxpayer dollars requires a solid

accountability framework and the steps that the Agency has begun to take

can serve as a sound basis for the future of foreign assistance. We will


                                     -9-
continue to work with the Agency to ensure that these steps only represent

the start of efforts to provide taxpayers with greater assurance that foreign

assistance funds are administered with integrity.

      I thank you for this opportunity to address the Commission and

appreciate your interest in our work and perspectives on these important

topics. I would be happy to answer any questions you may have at this time.




                                     -10-
